No.

IN THE
SUPREME COURT OF THE UNITED STATES

to£L r-iAgfj fr

— PETITIONER

(Your Name)
VS.

UtOyfltfl

cSr /Mf£j CA- — respondent(S)
PROOF OF SERVICE

t

t/^AT.l. ftMAislO££ r^Ato A:

, do swear or declare that on this date,
, 20
as required by Supreme Court Rule 29 I have
served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
and PETITION FOR A WRIT OF CERTIORARI on each party to the above proceeding
or that party’s counsel, and on every other person required to be served, by depositing
an envelope containing the above documents in the United States mail properly addressed
to each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:

fxtir.Kil
q5Q

Avl£.; >1W., gl.Qrj'UlM

T).c. x>5^Q-onr))

I declare under penalty of perjury that the foregoing is true and correct.
Executed on /{U

__ 3®

,20.

zl

£

u

m0L
(Signature

CERTIFICATE OF SERVICE AND COMPLIANCE
I, Rafael Fernandez Garcia, hereby declare under the penalty of
perjury that the foregoing is true and correct to the best of
my knowledge and that it is deposited into the institution's
mailbox with prepaid First Class US Postage for delivery to the
below party via US Postal Service on the date affixed. See 28
U.S.C. § 1746.
United States Supreme Court
1 First Street NE
Washington, D.C. 20543
*

*

*

I, Rafael Fernandez Garcia further certify that the foregoing
Petition For Certiorari was served upon the below party in com­
pliance with Supreme Court rules:
Solicitor General of the United States
Room 5614
Department of Justice
950 Pennsylvania Ave., N.W.
Washington, D.C. 20530-0001
This document was prepared pursuant to
S. Ct. Rule 33.2 and is less than 40 pages.
So Done on this ^ day of August 2021.
Rafiel Fernandez Garcia
Reg #91169-004
FCI Coleman-Medium
P.0. Box 1032
Coleman, Florida 33521

26

